<html>
<title> - [H.A.S.C. No. 114-131](Committee on Armed Services) and Serial No. 114-242 (Committee on Foreign Affairs) - SOUTH CHINA SEA MARITIME DISPUTES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-131]

                   SOUTH CHINA SEA MARITIME DISPUTES

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 of the

                      COMMITTEE ON FOREIGN AFFAIRS

                          [Serial No. 114-242]

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              JULY 7, 2016





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-818                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                      COMMITTEE ON ARMED SERVICES
             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk

                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee




















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces, 
  Committee on Armed Services....................................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces, Committee on 
  Armed Services.................................................     1
Salmon, Hon. Matt, a Representative from Arizona, Chairman, 
  Subcommittee on Asia and the Pacific, Committee on Foreign 
  Affairs........................................................     3
Sherman, Hon. Brad, a Representative from California, Ranking 
  Member, Subcommittee on Asia and the Pacific, Committee on 
  Foreign Affairs................................................     5

                               WITNESSES

Denmark, Abraham M., Deputy Assistant Secretary of Defense for 
  East Asia, U.S. Department of Defense..........................     8
Willett, Colin, Deputy Assistant Secretary of State, Bureau for 
  East Asia and Pacific Affairs, U.S. Department of State........     6

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    35
    Denmark, Abraham M...........................................    44
    Forbes, Hon. J. Randy........................................    33
    Willett, Colin...............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Sherman..................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    61
    Mr. Larsen...................................................    62
    Mr. Lowenthal................................................    65
    Mr. Salmon...................................................    63










                   SOUTH CHINA SEA MARITIME DISPUTES

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with the 
            Committee on Foreign Affairs, Subcommittee on 
            Asia and the Pacific, Washington, DC, Thursday, 
            July 7, 2016.

    The subcommittees met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Seapower and Projection Forces Subcommittee) 
presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
         PROJECTION FORCES, COMMITTEE ON ARMED SERVICES

    Mr. Forbes. I want to welcome the members of the House 
Armed Services Seapower and Projection Forces Subcommittee and 
the House Foreign Affairs Asia-Pacific Subcommittee to a 
special joint hearing on the topic of maritime disputes in the 
South China Sea.
    I also want to extend a warm welcome to our two witnesses, 
Ms. Colin Willett, Deputy Assistant Secretary [DAS] for 
Strategy and Multilateral Affairs in the State Department's 
Bureau of East Asian and Pacific Affairs, and Mr. Abraham 
Denmark, Deputy Assistant Secretary of Defense for East Asia. I 
thank you both for being here to testify at this special joint 
hearing.
    Our topic today is a timely and critically important one. 
Early next week, the Permanent Court of Arbitration is expected 
to rule on the legitimacy of China's expansive territorial 
claims in the South China Sea.
    In the aftermath of that ruling, the world will be watching 
two things. First, to see whether China behaves like a 
responsible stakeholder in the international system, and if 
not, to see how America responds. For decades, the United 
States has sought to facilitate China's integration into the 
global economy and the rules-based international order that has 
benefitted Asia so well. China's reaction to next week's ruling 
will provide a clear indicator of how that is going and whether 
Beijing's quest for regional dominance can be curbed by 
international law and world opinion.
    America's response will also send a powerful signal. While 
the United States does not take sides in territorial disputes, 
we can and should stand up for those parties that pursue their 
peaceful resolution. The Philippines is one such party but not 
the only one. And what we do or don't do to support our allies 
in the rules-based international system in the weeks ahead will 
have echoes across the region and in other corners of the 
globe.
    With so much at stake in the South China Sea, it is 
critically important that the United States has a clear policy 
toward the region and a strategy to sustain peace, prosperity, 
and the rule of law in Asia. Diplomacy will play a crucial role 
in avoiding and resolving conflict, and I am pleased to have 
Ms. Willett and members of the House Foreign Affairs Committee 
[HFAC] with us here today to discuss that critical aspect of 
any interagency approach to the region.
    If China continues to flaunt international law and world 
opinion, however, I firmly believe that the surest way of 
averting another devastating conflict in the Asia-Pacific 
region will be for the United States to remain present, 
engaged, and capable of projecting decisive military power in 
the region. Might does not make right, but it can be used to 
deter threats to peace, prosperity, and the rule of law.
    That is why I have been pleased to see an increase in U.S. 
naval and military presence in the region and an increase in 
the frequency of our freedom of navigation operations. I look 
forward to hearing from Mr. Denmark about what the Department 
of Defense is doing to deter Chinese aggression, reassure our 
allies and partners, and maintain a favorable military balance 
in the Asia-Pacific region going forward.
    I now turn to my good friend and colleague, Mr. Courtney, 
the ranking member of the Subcommittee on Seapower and 
Projection Forces, for any comments that he may have.
    Mr. Courtney.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 33.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
         PROJECTION FORCES, COMMITTEE ON ARMED SERVICES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you to 
yourself and to Mr. Salmon for organizing today's hearing, 
which again, as you stated, could not be more timely, given the 
fact that a proceeding that the eyes of the world have been 
watching for over a year or so is about to come to a climax 
with the decision by the U.N. [United Nations] Hague Convention 
in terms of resolving this question about maritime claims in 
the South China Sea.
    Again, the stakes are huge. Trillions of dollars of 
commercial sea traffic and products pass through the South 
China Sea every single year. There are numerous stakeholders in 
terms of different nations, maritime nations that are adjacent 
to it, and obviously, the U.S. Navy and the U.S. as a nation 
has huge interests at stake in terms of making sure that 
international norms are followed that have been followed for 
the last 70 years in the wake of World War II and that 
hopefully we are going to continue to see that rule of law 
continue after The Hague's decision.
    I think a nice--I have a written statement, which I am 
going to ask to be submitted, and I am just going to briefly 
end by saying that one way to sort of frame this question is 
that in September of 2015, five Chinese naval ships entered 
U.S. territorial waters off the coast of Alaska. In 
acknowledging the transit of these vessels, the United States 
made clear we viewed this action as well within the rights of 
China and any other nation to conduct innocent passage through 
legitimately established territorial seas and nonthreatening 
military activities within exclusive economic zone of another 
country.
    The question is whether or not that same standard, which we 
scrupulously followed, is going to be adhered to in the South 
China Sea. And again, the Navy, as we have heard on the Armed 
Services Committee, has been conducting these freedom of 
navigation operations over the last 6 months, 12 months or so, 
again, well within our rights under UNCLOS [United Nations 
Convention on the Law of the Sea], and really, that is what I 
think our policy should be, which is to just basically have a 
single standard across the board, whether it is up in the 
Alaskan waters or in the South China Sea.
    And you know, obviously, you know, we have a huge amount at 
stake, as I said earlier, but we are also, I think, the nation 
that really a lot of our allies in the region are looking 
towards in terms of leadership, and really, again, following 
through on what I think is really the only path forward in 
terms of assuring that international maritime activity is going 
to continue peacefully and productively for all the 
stakeholders that are affected.
    So again, I have a written statement which I would ask to 
be entered into the record, and with that, I would yield back.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 35.]
    Mr. Forbes. Without objection, all the written statements 
will be entered as part of the record. And now it is my 
privilege to recognize another good friend and colleague, the 
chairman of the Subcommittee on Asia and the Pacific, Mr. Matt 
Salmon of Arizona, for any remarks he may have.

 OPENING STATEMENT OF HON. MATT SALMON, A REPRESENTATIVE FROM 
   ARIZONA, CHAIRMAN, SUBCOMMITTEE ON ASIA AND THE PACIFIC, 
                  COMMITTEE ON FOREIGN AFFAIRS

    Mr. Salmon. Thank you very much, Chairman Forbes. I 
appreciate you giving me the opportunity to join you in 
convening this important and timely joint hearing.
    The territorial disputes in the South China Sea may 
represent the most significant long-term security challenge in 
our shared jurisdiction. Our conversations about this topic are 
often complicated by the minutia of territorial sea's baselines 
and high tide elevations, but it is important for us to 
remember today what the South China Sea dispute boils down to. 
One nation turning away from the peaceful mechanisms of 
international law and peaceful coexistence and instead 
embracing belligerence.
    Congress, the administration, and other counterparts across 
the world, recognize the severity of the threat posed by 
China's aggressive coercive actions in the South China Sea that 
undermine international norms. Our Secretary of Defense and the 
President himself regularly list the South China Sea among the 
world's most concerning international friction points and raise 
it at the highest levels with their Chinese interlocutors, 
including Chinese President Xi Jinping.
    Analysts around the world pour over the disputes, and the 
United States has undertaken a series of highly publicized 
freedom of navigation operations to contest China's outrageous 
claims. Alarmingly, all of this attention seems to have had 
little effect. Tensions in the sea continue to mount, and China 
has established effective control of many areas by building 
capable military facilities on top of disputed features.
    In light of these trends, today's hearing could not come at 
a better time. In the coming days, weeks, and months, the South 
China Sea territorial disputes will present a series of 
especially important challenges. Our response to these 
challenges has the potential to reverse the trend of escalating 
tensions or to cause further injury to the peaceful rules-based 
international order. I would like to touch briefly on a few of 
these challenges.
    First, the arbitral tribunal deciding the Philippines' 
legal case against China recently announced it will conclude 
its decision on July 12. Although China is legally bound, and I 
repeat, they are legally bound to its result, it has refused to 
participate and has clearly said it will not comply. I am 
concerned that many seem to have written off China's 
noncompliance as a foregone conclusion.
    You must remember that this case is the most significant 
substantial approach to settling disputes in the South China 
Sea through a peaceful, equitable process. China should be held 
accountable to the tribunal's ruling. The Scarborough Shoal 
represents another critical test. China and the Philippines 
have come to the physical confrontation over this site before, 
and recent rumors hint that China may soon extend its island 
building campaign to the Shoal.
    Despite how near Scarborough is to Philippine shores, its 
disputed status makes it unclear whether it is covered by the 
U.S.-Philippines Mutual Defense Treaty. This uncertainty means 
that if aggression around Scarborough Shoal is not handled 
properly, the very credibility of such treaties could be 
damaged. These treaties are anchors of hub-and-spoke alliance 
system in the Pacific and damage to them could have dire 
consequences on American influence and security in the region.
    Finally, I want to mention the continuing threat posed by 
China's ability to declare an Air Defense Identification Zone 
[ADIZ] over the South China Sea. I am concerned we have few 
direct options to counter this type of escalation if China 
chooses to pursue it. China's network of airstrips, radars, 
missile batteries constructed across the South China Sea while 
the rest of the world watched, may prove a capacity--excuse 
me--may provide a capacity to enforce such an ADIZ.
    While the United States military would never recognize such 
a zone, commercial carriers will likely comply with China's 
notification requirement as they have under China's ADIZ in the 
East China Sea. China will once again unilaterally have changed 
the status quo. These countless other challenges posed by the 
South China Sea territorial disputes will continue to test the 
United States and our allies.
    Though the answers are sometimes not easy to find, I am 
really glad we came together today to hold this joint hearing 
and working towards solutions, and keeping the issue at the 
forefront of foreign policy and national security agendas is 
critical, and I appreciate the opportunity. I yield back.
    Mr. Forbes. Mr. Chairman, thank you. And with that, I would 
like to yield to the ranking member of the Subcommittee on Asia 
and the Pacific, Mr. Sherman, for any comments he might have.

     STATEMENT OF HON. BRAD SHERMAN, A REPRESENTATIVE FROM 
   CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON ASIA AND THE 
             PACIFIC, COMMITTEE ON FOREIGN AFFAIRS

    Mr. Sherman. Thank you. Mr. Chairman, I will be a little 
bit of a contrarian, but if I just agreed with everybody who 
had just spoken, it would be so boring.
    It is my view that the power in making decisions in any 
important area of our policy is often under the control of the 
domestic organization that has power and cares about that 
policy.
    So when it comes to the Trans-Pacific Partnership [TPP], 
Wall Street wants it, Wall Street will probably get it. When 
you look at the Pentagon and its needs, we see that for 150 
years every time our military forces have confronted a worthy 
symmetrical uniformed adversary, it has ended with glory for 
our Armed Forces, from the Spanish-American War through the 
victory over the Soviet Union without a major conflagration. 
And every time we have faced a non-uniformed asymmetrical 
opponent, it has been a terrible experience for our military 
from the Philippine insurrection right up until the operations 
in Iraq and Afghanistan, not that we are always unsuccessful, 
but it has never been gloriously easy.
    And so it is not surprising that the Pentagon is looking 
for a worthy adversary, and there is only one available in the 
world, and that is China. And so we are told that we should 
spend hundreds of billions of dollars focused on developing new 
technologies and procuring new weapons systems for the purpose 
of confronting China in the South China and East China Sea.
    Not only are we subject to this, but China is subject to it 
as well. In China, there is one institution at the center of 
making decisions, that is the Communist Party, and that 
Communist Party suffers a great crisis of legitimacy. People 
all over China are asking, ``Why are these guys running 
things?'' Their old answer was they are running things because 
they are the vanguard of the proletarian. Not so much. Then 
they said: ``Shut up. We are giving you 10 percent economic 
growth.'' I would be inclined to switch political parties if I 
could achieve 10 percent annual economic growth, but the 
Communist Party can no longer do that. So the Communist Party 
of China is retreating into the last refuge of scoundrels and 
illegitimate governments, and that is exaggerated nationalism, 
and the best way for them to do that is to focus on these 
islands.
    The amount of cost that we are incurring as we build toward 
this confrontation, again, is hundreds of billions of dollars. 
We don't have a good cost accounting system for our military to 
tell us what weapons systems relate to what international 
threats and what foreign policy objectives, but every time I 
talk to the Pentagon about research and procurement, they say: 
``Sherman, we are not interested in doing research on anything 
unless it shoots down Chinese planes over the South China 
Sea.'' There are other things that we confront, particularly a 
war on terrorism where research is called for.
    Now, we are told that these islands are of such great 
importance. They have remained uninhabited, even though they 
are off the shore of the most teeming and populated continent, 
they have been uninhabited for millennia. We are told that 
trillions of dollars of trade goes through these islands. That 
is all trade going in and out of Chinese ports, which means if 
China were able to militarize these islands, they would be able 
to blockade their own ports.
    We are told that there is economic value in minerals, and 
none of which have happened, but we are sure of one thing, and 
that is, if there is any oil, it doesn't belong to us. It 
belongs to Japan, the Philippines, China, whoever owns these 
islands. And keep in mind, all of our allies want us to spend 
hundreds of billions of dollars defending their islands which 
may or may not have any economic value at all, but they are 
never willing to spend more than 1, maybe 2 percent of their 
GDP [gross domestic product] to defend their islands or their 
countries.
    So I am not saying we should surrender to China, but we 
should not surrender to the urge to exaggerate. We should be 
careful, and we should relax. I am not pro-China. I am pro-
Ambien, America's leading sleep product.
    There are many situations in the world where countries make 
outlandish claims that can be quietly resisted without turning 
the Pentagon on its head, spending hundreds of billions of 
dollars developing new lethal technologies and reorienting our 
foreign policy and our military policy toward dealing with one 
particular outlandish claim.
    So we need to resist calmly China's claims in the South 
China Sea. I yield back.
    Mr. Forbes. The gentleman yields back.
    Ms. Willett, we are glad to have you with us today, and Mr. 
Denmark. And before I turn to your testimony, I want to make 
one procedural motion.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions. 
Is there an objection?
    Hearing none, non-subcommittee members will be recognized 
at the appropriate time for 5 minutes.
    And with that, Ms. Willett, we want you to take all the 
time you want as long as you can get it within that 5-minute 
allotment that we have given there to give us your thoughts and 
your comments, and again, your written testimony will be made 
part of the record, so thank you for being with us, and we turn 
the floor over to you.

   STATEMENT OF COLIN WILLETT, DEPUTY ASSISTANT SECRETARY OF 
     STATE, BUREAU FOR EAST ASIA AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Willett. Well, thank you very much, Chairman Forbes and 
Chairman Salmon. It is a great opportunity to appear before 
this----
    Mr. Forbes. Ms. Willett, I am going ask you to do what they 
asked me to do. Can you get a little closer to that mic. 
Sometimes they just aren't very sensitive and don't pick up. 
Thank you.
    Ms. Willett. Sure. So thank you, Chairman Forbes and 
Chairman Salmon for the opportunity to appear before this joint 
subcommittee hearing today. It is a very timely issue. It is a 
very important issue. The importance of the South China Sea to 
global commerce and to regional stability, I think is well 
known. Its economic and strategic significance means the United 
States has a vested interest in ensuring that territorial and 
maritime issues are managed peacefully.
    Next week will present an important milestone in the South 
China Sea dispute. On July 12, the arbitral tribunal convened 
under the Law of the Sea Convention is set to issue a decision 
on the Philippine submissions relating to the application of 
the convention to the South China Sea.
    The Philippines has asked the tribunal to rule on a number 
of issues, particularly on the validity of China's nine-dash 
line and on the maritime entitlements generated by various land 
features in the South China Sea. Such a ruling has the 
potential to narrow the areas which can legitimately be 
considered subject to dispute based on maritime zones generated 
from contested land features as well as the undisputed mainland 
coast of Southeast Asian claimants.
    While the tribunal will not address the underlying 
sovereignty claims to land features, the decision does have the 
potential to crack the door open to a new modus vivendi among 
the parties that would help manage tensions in those disputed 
spaces.
    It is possible to envision a diplomatic process among the 
claimants that would explore different ideas for managing 
marine resources in areas that all relevant parties agree are 
subject to competing claims.
    Such a path towards cooperation is achievable if claimants 
have the political will, flexibility, and creativity to find 
reasonable and practical arrangements that could serve as 
starting points for addressing these longstanding tensions. 
Conversely, an adverse reaction to the tribunal ruling could 
become a source of increased tension.
    The Law of the Sea Convention makes clear that the absence 
of a party or failure of a party to defend its case shall not 
constitute a bar to the proceedings, and that a decision by the 
tribunal shall be complied with by the parties to the dispute; 
in this case, China and the Philippines.
    The world will be watching to see whether China chooses a 
path of diplomacy and cooperation or continues to walk along 
one of confrontation with its neighbors. The U.S. approach to 
the dispute aims to reduce the risk of conflict and preserve 
space for diplomatic solutions, including by pressing all 
claimants to exercise restraint, maintain open channels of 
dialogue, lower their rhetoric, and behave responsibly in the 
sea and in the air, and acknowledge that the same rules and 
standards must apply to all.
    The international community has an interest in maintaining 
a peaceful and stable South China Sea and preserving a rules-
based regional system. As such, we will keep the South China 
Sea and maritime cooperation at the top of the agenda in the 
region's multilateral forum while also working bilaterally with 
the relevant countries. We will continue to ensure that 
problematic behavior is exposed and censured. We are engaging 
closely with all of the claimants at all levels of government, 
as President Obama did in his recent trip to Vietnam, and 
Secretary Kerry did at the strategic and economic dialogue in 
Beijing last month.
    We are working with Southeast Asian coastal states to 
improve their maritime domain awareness, maintain effective 
presence in their claimed waters, and enable them to increase 
communication and collaboration amongst themselves. A common 
operating picture can help prevent unintended escalations and 
improve levels of cooperation. For these countries, having a 
steady and consistent presence is an important demonstration 
that they have no intention of relinquishing their legitimate 
maritime rights.
    These diplomatic and capacity building efforts rest on top 
of our robust and durable U.S. military presence in the region, 
which my colleague will discuss in greater detail. But let me 
underscore that the United States will not hesitate to defend 
our national security interest and to honor our security 
commitments to our allies and partners.
    The United States has been an important partner in 
protecting the security and stability of the Asia-Pacific 
region for decades, and we will continue to protect our rights 
and the rights of all nations to fly, sail, and operate 
wherever international law allows.
    I thank you for the opportunity to appear before you today 
and look forward to discussing.
    [The prepared statement of Ms. Willett can be found in the 
Appendix on page 37.]
    Mr. Forbes. Ms. Willett, thank you.
    Mr. Denmark, we look forward to your comments.

STATEMENT OF ABRAHAM M. DENMARK, DEPUTY ASSISTANT SECRETARY OF 
       DEFENSE FOR EAST ASIA, U.S. DEPARTMENT OF DEFENSE

    Mr. Denmark. Thank you, Chairman Forbes, Chairman Salmon, 
ranking members, distinguished members of the committee. Thank 
you for----
    Mr. Forbes. Mr. Denmark, could you do the same thing, could 
you get a little closer?
    Mr. Denmark. Thank you for inviting me and Deputy Assistant 
Secretary Willett to testify before you today on this important 
issue.
    I would like to thank both of the committees for your 
leadership in supporting our Nation's robust engagement across 
the Asia-Pacific. South China Sea is an area of immense 
economic and strategic importance. For decades, it has been a 
critical operational area for our military and is central to 
our strategy of strengthening a principled rules-based order 
that enables regional stability and prosperity.
    This afternoon I will describe a region at a crossroads 
with the upcoming U.N. arbitral tribunal and what actions the 
Department of Defense is taking to preserve regional stability 
for decades to come.
    At the center of the South China Sea disputes are a series 
of competing claims among Brunei, China, Malaysia, the 
Philippines, Taiwan, and Vietnam. While the U.S. takes no 
position on competing territorial sovereignty claims, we do 
take a strong position on protecting and in upholding the 
rights, freedoms, and lawful uses of the sea and airspace 
guaranteed to all, and we seek to uphold key principles at the 
heart of a rules-based international order, including customary 
international law, unimpeded lawful commerce, freedom of 
navigation and overflight, and the peaceful resolution of 
disputes.
    We do have concerns about the actions by any claimant that 
may have an effect of eroding these principles. China in 
particular has undertaken a series of initiatives that set it 
apart from other claimants, reclaiming 3,200 acres in the 
Spratly Islands, building harbors, logistical facilities, and 
military-grade airfields as it deploys military assets to these 
features, and using low-intensity coercion to enhance its 
presence and ability to control the South China Sea.
    At the same time as China has been building outposts, 
another process has also been playing out. In just 5 days, on 
July 12, a United Nations Permanent Court of Arbitration 
tribunal will issue a ruling on these disputed features. The 
ruling will mark an important crossroads for the region. It 
will present an opportunity for those in the region to 
determine whether the Asia-Pacific's future will be defined by 
adherence to international laws and norms that have enabled it 
to prosper, or whether the region's future will be determined 
by raw calculations of power.
    In light of this key inflection point, I would like to 
briefly describe what we are doing in the region to preserve 
regional stability. The United States has undertaken a whole-
of-government approach in the South China Sea with the 
Department of Defense [DOD] working in lockstep with the State 
Department and others to support our diplomacy with a robust 
military capability.
    I would like to outline the four broad DOD efforts that 
have supported the broader USG [U.S. Government] strategy. 
First, the Department of Defense has been providing a credible 
capability in the South China Sea and the region to deter 
conflict and to create space for our diplomatic efforts to 
succeed. We have increased our military presence, and we are 
ensuring our presence is geographically distributed, 
operationally resilient, and politically sustainable.
    Second, we have enhanced our tempo of military operations. 
From exercises, to freedom of navigation operations and 
presence operations, DOD continues to fly, sail, and operate 
wherever international law allows so that others can do the 
same.
    Third, we are enhancing our regional security network 
through building partner capacity, training, and exercises, 
particularly through our engagement with ASEAN [Association of 
Southeast Asian Nations].
    And finally, we are engaging China directly to reduce risk. 
We consistently encourage China to take actions that uphold the 
shared principles that serve so many in the Asia-Pacific so 
well. We seek to keep lines of communication with Beijing open 
to improve our cooperation in areas of mutual interest and to 
speak candidly and constructively, manage differences when we 
disagree.
    These efforts have set the stage for engagements following 
the upcoming decision from the U.N. arbitral tribunal. DOD will 
provide critical support to our diplomacy by providing a 
credible deterrent against the use of force and in favor of the 
peaceful resolution of these disputes. We will continue to 
defend ourselves, our allies and partners, our interests, and 
our principles.
    Mr. Chairman, ranking members, distinguished members of the 
committees, the upcoming U.N. arbitral tribunal ruling provides 
an opportunity for the region to stand firm in our enduring 
commitments to a principled order in the Asia-Pacific and the 
rest of the world. And it is an opportunity for us to reconfirm 
our commitment to work with the region to ensure a principled 
future, one in which all people have the opportunity to live in 
peace and prosperity.
    I thank you very much, and I look forward to our questions.
    [The prepared statement of Mr. Denmark can be found in the 
Appendix on page 44.]
    Mr. Forbes. Ms. Willett, Mr. Denmark, thank you both for 
being here.
    Let me ask you this, Mr. Denmark. Is there any military 
significance to Scarborough Shoal to the United States?
    Mr. Denmark. Thank you, Mr. Chairman. The military value of 
Scarborough is not intrinsic to the feature itself. It is 
highly variable, dependent on if a country--if a claimant were 
to place military capabilities on Scarborough, it will be 
highly valuable, depending on the specific capabilities that 
have been in place.
    So to my mind, the value of Scarborough is one of strategic 
importance in that it would increase a claimant's ability, de 
facto ability to control the South China Sea and would, I 
think, marginalize a principled international order in which 
countries refrain from occupying, and constructing, and 
deploying military assets to previously unoccupied features.
    Mr. Forbes. Ms. Willett said that we will do everything 
necessary to defend the national security interest of the 
United States and allied defense rights. If you did have a 
militarization of the Scarborough Shoal, would that have any 
impact on our national interest or our allied defense rights?
    Mr. Denmark. Well, Mr. Chairman, it is very difficult for 
me to comment to any degree of specificity on potential future 
hypotheticals.
    Mr. Forbes. Well, we need to--don't we need to know? I 
mean, don't we need a strategy to be able to answer those kinds 
of questions, or--I mean, are we saying we don't have a 
position based on the Department of Defense right now as to 
whether or not there is any military significance there and if 
it does have military significance as to whether or not it 
would impact our national security interests?
    Mr. Denmark. Well, Mr. Chairman, as I said, the military 
significance of Scarborough is not intrinsic to the feature 
itself but rather what would be in place upon it. So it is 
difficult for me to react, to guess as how I would react 
because there is such a wide degree of variability.
    Mr. Forbes. Is there anything you could tell us as to what 
would constitute the militarization of Scarborough Shoal?
    Mr. Denmark. Militarization is not a term that we have 
used. The term was introduced, as you know, sir, during 
diplomatic exchanges with the Chinese. We look to resolve these 
issues through diplomacy.
    Mr. Forbes. I understand. We want everybody to take a 
breath and be calm, but at some point in time, they don't 
always do that. And so if we were to have a situation, they say 
they are not going to militarize those islands. If they were to 
militarize those islands, would that be contrary to the 
national security interest of the United States?
    Mr. Denmark. Again, sir, I think it is too--the variability 
in what could be placed on various----
    Mr. Forbes. So the Department of Defense or you can't give 
us an opinion as to whether or not you think the militarization 
of the Scarborough Shoal would be against the national security 
interest of the United States?
    Mr. Denmark. Well, in terms of--you asked me, sir, what I 
can comment upon is the military implications of this.
    Mr. Forbes. Okay.
    Mr. Denmark. And in terms of military implications, as I 
said, the variability, based on what could be in place on any 
of these features, is extremely broad, and so therefore it is 
difficult for me to hypothesize about how we may react or 
respond to what may be put on any one of these features.
    Mr. Forbes. Okay. Let me ask you this then. The 1951 Mutual 
Defense Treaty finds the United States and the Philippines were 
bound to respond to attacks on the armed forces, public 
vessels, or aircraft of the other party as well as island 
territories under its jurisdiction.
    Has the United States or--either through the Department of 
Defense or the State Department even made an analysis of 
whether or not it thinks the Scarborough Shoal is an island 
territory under the jurisdiction of the Philippines?
    Mr. Denmark. Sir, treaties tend to be--the specific meaning 
of treaties tend to be handled by the State Department, so let 
me--before I turn things over----
    Mr. Forbes. Okay.
    Mr. Denmark [continuing]. To my colleague, let me just say, 
as I have said in my written testimony, as DAS Willett 
mentioned in her statement, that we are--we retain an ironclad 
commitment to the defense of our allies, and that is something 
that we will not hesitate to follow through with.
    Mr. Forbes. Ms. Willett.
    Ms. Willett. Absolutely. Mr. Chairman, the United States 
does not take a position on disputes over land features, and 
the Scarborough Shoal is disputed.
    Mr. Forbes. How would you interpret your treaty 
responsibilities if it says ``island territories under the 
Philippine jurisdiction,'' how would you make the determination 
as to whether that was or was not under the jurisdiction of the 
Philippines?
    Ms. Willett. Scarborough Reef is a disputed feature, and we 
don't take a position on whose claim is more legitimate.
    Mr. Forbes. So if there was a dispute with China over 
whether or not one of their vessels belonged to them or to the 
Philippines, the United States wouldn't make a decision over 
that?
    Ms. Willett. I think the language in the Mutual Defense 
Treaty is clear in terms of its applicability to persons and 
vessels from the----
    Mr. Forbes. Is it not clear about island territories under 
its jurisdiction?
    Ms. Willett. Scarborough Reef is a disputed feature that we 
don't recognize any country's sovereignty over. That said, our 
treaty commitment to the Philippines is absolutely ironclad. 
This is something that we would take very seriously, and any 
move to occupy a currently unoccupied feature, or further 
militarize a currently occupied feature, is very dangerous and 
it is very destabilizing and I think something that would 
concern not just us but the other countries in the region.
    Mr. Forbes. And I am going to try one more bite at this, 
and then I am going to give it to Mr. Courtney. I understand it 
would be very destabilizing. Military actions always are. What 
my concern is, we have a treaty, and at some point in time, we 
have to make an analysis or determination what is in that 
treaty and what is not in that treaty. We specifically state in 
here armed forces, public vessels, aircraft, and we talk about 
island territories under its jurisdiction.
    At some point in time, the United States has to make its 
own legal determination as to whether or not they think those 
vessels belong to the Philippines or the aircraft belong to the 
Philippines. Are you saying that anytime somebody just puts 
that in dispute that the United States is going to step back 
and not defend that?
    Ms. Willett. No. I mean, I think the language in the treaty 
is clear. In the specific case of Scarborough Reef, the land 
feature itself is disputed.
    Mr. Forbes. Okay.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Ms. Willett, I would just like to drill down with you a 
little bit about UNCLOS and its history and just sort of the 
structure of how that treaty operates.
    Again, in terms of how past cases have played out, I think 
your testimony mentioned India and Bangladesh had a dispute 
which went through the arbitration process, and it ended up 
with a peaceful resolution. Is that correct?
    Ms. Willett. Yes, that is correct.
    Mr. Courtney. And it had been a longstanding claim over 
many years that led up to that decision. But again, the sort of 
moral and global force of the UNCLOS kind of prevailed at the 
end of the day to have a positive outcome?
    Ms. Willett. Yes. I think that is correct. I mean, I think 
there are actually numerous examples within the region where 
countries have effectively used legal dispute resolution 
mechanisms to settle territorial, including maritime territory, 
disputes amongst themselves. And so it can be a very effective 
tool for upholding that rules-based system.
    Mr. Courtney. But there is no sort of, you know, UNCLOS 
SWAT [special weapons and tactics] team that is out there, so 
that, again, in terms of enforcing a ruling. I mean, it is 
really something that sort of uses, as I said, sort of the 
international, you know, standing as a way of trying to get 
people to work within the rule-based system that it created. Is 
that correct?
    Ms. Willett. Yes, it is. UNCLOS protects the rights of all 
nations, whether they have maritime entitlements themselves or 
not, to a specific standard for use of the seas. So it protects 
globally everyone's right to legally use international waters 
around the world. And so I think the pressure comes from an 
understanding that we all benefit from having an international 
system for regulating how seas can be used that benefits all of 
us.
    Mr. Courtney. All right. So over, you know, the last year 
or so, though, I mean, it appears that China has been trying to 
sort of step outside that structure and sort of negotiate sort 
of on a bilateral basis with countries in the region there to 
sort of, again, establish their own agreements regarding, you 
know, the issues that are really under the jurisdiction of 
UNCLOS.
    Is that sort of the pattern that you have seen, the salami 
slicing, as they call it?
    Ms. Willett. Yes, Congressman. I think you hit on it 
exactly that the fundamental issue at stake in the South China 
Sea is it is not about the rocks. It is about the rules. Is 
China, as it becomes a global sort of player and as its 
interests expand, is it going to play by the same rules as the 
rest of the globe does, whether that is in terms of the Law of 
the Sea or trade law or what have you? The question that is 
posed right now, is China going to play inside that rules-based 
system that has benefitted all of us so much over the last 70 
years?
    Mr. Courtney. All right. So and during the course of this 
proceeding--I mean, it is my understanding that the U.S. 
actually tried to obtain observer status in the, you know, the 
litigation that took place there, and we actually were denied 
that opportunity because the U.S. Senate has never ratified 
UNCLOS. Is that your understanding, or is that your testimony?
    Ms. Willett. Yes. The Obama administration, like all 
previous administrations, believes very firmly that our 
interests would be served by ratifying the Convention on the 
Law of the Sea. We did request observer status at the hearings 
under--held by the arbitral tribunal, but because we are not a 
party to the Convention, we are not able to participate, and it 
does harm us that we have not yet ratified the Convention. It 
is a common criticism when we speak out about the importance of 
these rules when we, ourselves, have not----
    Mr. Courtney. Right.
    Ms. Willett [continuing]. Signed up.
    Mr. Courtney. And that is, frankly, an observation that has 
been made by our military leadership as well. I mean, Admiral 
Richardson, you know, has testified to that effect. General 
Dunford has testified to that effect, and Admiral Harris, who 
is out there in the middle of all this with the 7th Fleet in 
PACOM [U.S. Pacific Command] has said that, really, it is time 
for this country to move forward and ratify UNCLOS.
    And again, as we get closer to the decision, frankly, I 
think hopefully our friends in the upper chamber will 
understand that, you know, this is not just some sort of parlor 
game in Washington. I mean, it has real life effects in terms 
of trying to, again, maintain, you know, what I think has been 
a rules-based system of maritime law and that we benefit from 
it in many respects even more so than other countries.
    Mr. Connolly. Would my friend yield?
    Mr. Courtney. Sure.
    Mr. Connolly. My understanding is that by not being a 
member, and the Chinese being a member, they actually can 
influence all the committees and subcommittees and we can't. 
And so in terms of doing the actual work of the law of the 
seas, we are day to day at a disadvantage and they are day to 
day at an advantage. I don't know if Ms. Willett wants to 
confirm that, but I thank my friend for yielding.
    Mr. Courtney. Well, all I would just point out is there is 
a House Resolution 631 urging the Senate to ratify, and 
hopefully today some Members will take a look at that and maybe 
have them sign onto it because, as I said, next week, the eyes 
of the world are going to be on this treaty and its benefits.
    And certainly, I mean, I think what we have heard without 
specifics this morning or this afternoon is really that, you 
know, we are going to be part of whatever that sort of 
international, you know, force to make sure that the decision 
is really adhered to. And again, we have that single standard 
that really, I think, is so important and that UNCLOS, you 
know, is really focused on creating. We all benefit from that. 
With that, I yield back, Mr. Chairman.
    Mr. Forbes. Chairman Salmon.
    Mr. Salmon. Thank you.
    When I first started serving on the Foreign Affairs 
Committee, it was 1995, Warren Christopher was the Secretary of 
State, and I remember asking the question in a hearing like 
this, what was our State Department policy toward China, and 
the answer kind of astounded me, yet it has been a policy of 
many administrations. He called it strategic ambiguity. I 
thought that was the oddest policy I had ever heard.
    And having been to China myself probably close to 50 times 
and speaking the language, living in Taiwan for a couple of 
years, being around them a lot of time, I think this is a 
country we need to have some real strategic clarity with, and I 
think one of reasons that things are getting so out of control 
in the South China Sea is that everybody is kind of dancing 
around, you know, the 800-pound gorilla in the room. China has 
stated pretty openly that with this arbitral tribunal decision 
that is expected in a couple of weeks that they don't intend to 
adhere to it.
    So then what? I guess that is my question. What are our 
options then? A lot of our allies in the region are extremely 
concerned about China's land grabbing. And as the chairman of 
the HAS [House Armed Services] Committee said that, you know, 
not only island grabbing but putting military installations on 
those islands, and so virtually all of our allies in the region 
have expressed grave concerns about what China is doing, and 
they are waiting on us to do something.
    What is that something? If they flout the decision by the 
tribunal, what is our next move? Because I think all eyes are 
going to be watching us, and though we don't specifically have 
any land disputes ourselves but our allies do, the other 
concern I have is that I think that the South China Sea is a 
real tinderbox. Whenever President Obama or Secretary Kerry 
talks about, or Ash Carter talks about the South China Sea, it 
is always one of the top national security concerns that we 
have. It is always delineated as such.
    And so what I am wondering, you know, with a lot of the 
close encounters with the ships and the planes, you know, just 
one wrong move at any given time could escalate into a major 
conflict, a major problem. What is our recourse if they just 
flout that decision?
    Ms. Willett. So to your point about China, Mr. Chairman, it 
is a big and obviously very strategically important 
relationship to the United States. It is one that has grown 
dramatically over the last several years, but one that contains 
disagreements but also contains a great deal of areas where we 
have common interests and can cooperate fairly effectively.
    And I would say that that dialogue, that cooperation has 
grown quite a bit over the last several years. It is true that 
we still have areas of disagreement, but part of that is our 
continued dialogue and our continued cooperation has allowed us 
to be able to deal with those areas pretty frankly.
    Now, there are areas, and the South China Sea is a clear 
example, where we continue to have a very significant 
difference of opinion and a great deal of friction. Our 
strategy overall, from day one, has been multifaceted. It 
includes diplomatic, military, capacity building, and economic 
tools aimed at shaping the strategic environment such that 
flouting the rules-based order and not playing by the same 
rules as others, the incentives aren't there, and ensuring that 
the effects of coercion, or you know, lawbreaking aren't 
positive.
    The net effect of what we are seeing is a situation where, 
you know, no claimant can expect to flout the law, flout the 
ruling in a way that doesn't draw international approbation and 
interest and a great deal of scrutiny, and in fact, has 
resulted in a situation where we are seeing a much greater 
demand for U.S. security presence, U.S. security cooperation, 
U.S. engagement, and we have seen much greater interest in 
economic diversification, including interest in TPP, expanded 
security ties to other regional players such as India and 
Japan, such that flouting international law, pushing back, 
behaving in a way that is not consistent with the rules-based 
order isn't paying the dividends that it might otherwise. And I 
believe that our intensive diplomatic, economic, and military 
engagement has played an important role in creating an 
environment where the payoff just isn't worth it.
    I think it is clear that Southeast Asian claimants continue 
to stand up for their rights and push back against efforts to 
coerce and bully them. We have seen a great deal of growth in 
multilateral cooperation on these big strategic issues, and I 
would expect that to continue.
    Mr. Salmon. What can we do to encourage ASEAN to step up to 
the plate in a bigger way, because heretofore--I know that most 
of the ASEAN members, because I have met with them, they are 
all very concerned about what is going on in the South China 
Sea and Chinese belligerence, but ASEAN as a group has yet to 
be incredibly effective as one strong voice to deal maybe some 
reputational harm to China. What can we do to help maybe make 
that stronger, that response from them?
    Ms. Willett. Well, thank you. ASEAN has actually been a 
consistent voice for international law and an international 
rules-based system for the nearly 50 years that they have 
existed. But you are correct, Mr. Chairman, that their 
institution has some limitations. There have been some 
instances and some limitations to their ability to speak out, 
but on this issue, they have actually spoken out fairly clearly 
fairly recently both in their joint statement with the 
President at the Sunnylands Summit in February where they made 
a clear statement in support of the Convention on the Law of 
the Sea and the right of countries to pursue dispute resolution 
through all peaceful processes, including legal and diplomatic 
processes.
    They have made their own standalone statements through 
their foreign ministers at their foreign ministerial in April, 
and we expect them to continue to take that principled line on 
the importance of the rule of law and international conventions 
such as the Law of the Sea.
    Mr. Salmon. Finally, is imposing reputational harm the 
absolute best that we can do? Other than upgrading the maritime 
security capabilities of our partners in the region, do we have 
any other tools for inducing behavioral change in the South 
China Sea?
    Ms. Willett. Thank you, Mr. Chairman. As I said, our 
strategy is multifaceted. It is diplomatic, it is military, it 
is about capacity building with the other claimants, it is 
about economic tools, but it is a cumulative long-term strategy 
aimed at making clear that the strategic environment is such 
that it is not in any claimant's or any nation's interest to 
violate international law.
    Mr. Salmon. Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Sherman.
    Mr. Sherman. Thank you. There is only one significantly 
inhabited island in dispute in the South and East China Sea 
called Taiwan, a lot more people than all the--and one way to 
defend Taiwan would be to spend a few hundred billion dollars 
on more naval assets; but there is something else that would be 
just as effective, probably more effective, and that is with a 
clear law that would immediately eliminate China's ``most 
favored nation'' [MFN] status if they blockade or invade 
Taiwan.
    Under those circumstances, the missiles that China could 
use on any day to just threaten Taiwan and close its ports 
would, I think, become inoperative. Ms. Willett, would you 
oppose or would the State Department oppose an effort by 
Congress to just say if you invade or blockade Taiwan, at that 
moment you automatically lose MFN?
    Ms. Willett. Thank you, Congressman. I am happy to take 
your question and consult with my colleagues who cover Taiwan 
policy and come back to you with an answer.
    Mr. Sherman. Can I count on a clear unambiguous answer for 
the record?
    Ms. Willett. I have to take your question back to my 
colleagues who cover Taiwan.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Sherman. I think it was my--the chairman of our 
subcommittee that talked about ambiguity. It might be good to 
be ambiguous toward China but maybe not ambiguous toward 
Congress on this issue. I hope to get a clear answer.
    Mr. Denmark, there has been a massive increase in the 
world's attention to disputes between Japan and China over 
islands. Has Japan massively increased its defense budget over 
the last 4 years? And don't they spend well less than a quarter 
of what we spend as a percentage of GDP?
    Mr. Denmark. Thank you, sir. I don't have the specific 
numbers in front of me. I do believe it is a percentage of how 
much----
    Mr. Sherman. It is about 1 percent of their GDP.
    Mr. Denmark. In terms----
    Mr. Sherman. They keep claiming they are going to increase 
it, they never actually increase it, and they want us to spend 
hundreds of billions of dollars to develop and deploy naval 
assets to defend islands that don't have any oil, but if they 
do have oil, it is Japan oil or Chinese oil, it is not American 
oil.
    Mr. Denmark. To answer your question, sir, in terms of 
absolute numbers, I do believe that Japan's defense budget has 
increased in recent years, although not dramatically, as you 
said, sir. But we have seen, I think, very important 
developments in our alliance with Japan in the last few years 
with our agreement on new defense guidelines, the passage of 
new legislation that enables their----
    Mr. Sherman. They are not willing to put their money where 
they want us to put our money. They are not willing to put 
their lives where they want us to put our lives, and it is nice 
that they will issue joint communiques, but joint communiques 
don't cost anything.
    Ms. Willett, I want to return to the UNCLOS. I agree with 
you. It is not about the rocks. It is about the rules. China 
seems to have it the best of both worlds. They join UNCLOS, 
serve on the subcommittees, as the gentleman from Virginia 
pointed out, and yet they are not going to follow the outcome 
of this arbitration provision. Should we join--I mean, there 
are various arguments about us not joining UNCLOS, but it seems 
like China has demonstrated that you can join, participate, and 
if you disagree with anything they do, well, you just say they 
don't have jurisdiction.
    Is there any mineral rights or fishing rights or anything 
of value that the United States claims that someone is 
objecting to in a way that we could lose in UNCLOS, and if so, 
would we have to recognize the binding power of its decision?
    Ms. Willett. On the China question, Congressman, it is true 
that China has indicated that it does not accept the 
jurisdiction of the tribunal.
    Mr. Sherman. You can be sure they will accept it if they 
happen to win.
    Ms. Willett. Our focus is on their behavior following the 
tribunal decision. Actions matter in this case.
    Mr. Sherman. This question more is about why shouldn't we 
join UNCLOS? It seems China is demonstrating that you can 
participate, you can influence, and you don't really have to 
follow their rulings, so what is--can you think of any 
disadvantage to joining UNCLOS? Is there anything we could 
lose?
    Ms. Willett. Disadvantage to joining UNCLOS?
    Mr. Sherman. Yes.
    Ms. Willett. No. Our position is that it materially 
benefits us to be a part of the Convention of the Law of the 
Sea.
    Mr. Sherman. So we get the benefits, you can't think of 
anything we could lose, but even if we lost in an arbitration 
on UNCLOS about some arctic resource, China is demonstrating 
that you don't have to follow the ruling. It sounds like a 
great organization to join.
    Ms. Willett. China has not yet demonstrated that you don't 
have to follow the ruling. There hasn't been a ruling.
    Mr. Sherman. They have demonstrated that if the ruling goes 
against them, they will not feel it binding on them.
    Ms. Willett. I am concerned with their actions after we 
have an actual decision from the tribunal.
    Mr. Sherman. I mean, they may scale back what they do 
voluntarily for a host of reasons, but it is clear that they 
have laid the legal foundation to win if they win at UNCLOS and 
not to feel bound by it if they lose.
    Ms. Willett. They have presented an argument asserting that 
they are not bound by the tribunal if--when it rules. That is 
not----
    Mr. Sherman. And it is an incredibly weak argument.
    Ms. Willett. That is correct.
    Mr. Sherman. If we ever needed to present an argument, we 
could certainly present one that strong. Their argument is that 
some other government that they don't recognize once drew a 
line claiming something. That is like a Confederate general 
claiming Cuba, and so we claim all of Cuba. It is--so again, 
there are the advantages that the gentleman from Virginia 
pointed out.
    What could we possibly lose by joining UNCLOS? I don't know 
if Mr. Denmark has a comment. I will see if you have a comment, 
and then I believe my time has more than expired.
    Ms. Willett. The Convention on the Law of the Sea protects 
our maritime interests around the world. It is an important 
legal framework that ensures all countries are able to make use 
of the seas based on a rules-based system. We firmly believe 
that it is in the United States' interests to ratify, and we 
expect all parties to the Convention to fulfill their 
obligations under it.
    Mr. Sherman. I will just yield to the gentleman from 
Connecticut to remind us of the H.R. resolution that allows us 
to register our belief. That would be 631, and you are allowed 
to cosponsor that, right? Good to find out. Thank you.
    Mr. Forbes. The gentleman yields back his time.
    The distinguished gentleman from Alabama, Mr. Byrne, is 
recognized for 5 minutes.
    Mr. Byrne. Thank you. Several of us on these two panels 
were in China together a couple months ago, and we had the 
opportunity to have a number of briefings and actually got to 
hear the Chinese position. And the Chinese position is that we 
are a weakening power in the Pacific. Now, I don't know that we 
necessarily have to agree with their assessment, but I think it 
is important we understand that is their assessment. They got 
me to thinking about what Teddy Roosevelt always said, which 
is, ``Walk softly but carry a big stick.'' A lot of what we 
have heard today has been about using discretion and the use of 
power, which is certainly appropriate in any environment, 
particularly in a sensitive environment like the South China 
Sea. But I guess the question I have is, do we have a big 
enough stick over there? Do we have the right military assets 
in place in the right place to do what we need to do to fulfill 
the objectives of the United States, both militarily and 
otherwise? We keep having these incidents. The Chinese are 
clearly pushing very hard. You are from the Department of 
Defense. Do you have the assets that you need to carry out your 
mission?
    Mr. Denmark. Yes, Congressman, I believe we do. It is 
interesting, you mentioned, you referenced President Roosevelt 
in that, several months ago, I had the opportunity to accompany 
Secretary of Defense Carter to the USS Teddy Roosevelt 
operating in the region, which the ship calls itself 
``America's Big Stick,'' which I think is a nice example----
    Mr. Byrne. I have also been on that vessel. It has a motto 
stenciled all throughout it saying ``putting warheads on 
foreheads.'' I love that. It is a good motto.
    Mr. Denmark. As I mentioned in my testimony, Congressman, 
we have increased our presence in the region over the last 
several years, and this is responding to a fairly ubiquitous 
and loud demand signal that we have been hearing from across 
the region from our allies and our partners stating that they 
are concerned about activities and actions happening in the 
South China Sea and asking us to work with them. And we have 
answered that call. We are working with them to enhance their 
capabilities. We are conducting exercises. We are conducting 
training. We are building our own capabilities in the region. 
Our operations tempo has increased, and we see that all these 
actions are providing for the common good. They are increasing 
maritime domain awareness and maritime security in the region, 
supporting our allies and our partners as well as our own 
national interests. And all of our missions are done 
meticulously to ensure that everything that we do is done in a 
way that is compatible and supports international law and 
maintains safety.
    Mr. Byrne. Well, a number of us are going with Mr. Courtney 
to the RIMPAC [Rim of the Pacific] exercise in a couple weeks.
    I want to go back to that Chinese perception. If we believe 
we have the appropriate number of assets, how do we cure that 
problem? Because a misperception is as dangerous to us as 
anything else. How do we cure that misperception with the 
Chinese? Do exercises like RIMPAC help with that, or does there 
need to be more direct communication between us and them? What 
is the source of their misunderstanding, and what can we do 
about it?
    Mr. Denmark. Well, Congressman, I do think that RIMPAC is a 
very good demonstration of American leadership and American 
power in that no other country is able to bring together so 
many countries to work together in pursuit of a common 
objective. So I think RIMPAC is a terrific example of that. In 
terms of our interactions with China, we have pursued for 
several years very consistently a robust military-to-military 
relationship with them, which includes military diplomacy in 
which our senior leaders, their senior leaders from our two 
militaries, interact with each other, both in person and over 
communications. We visit each other's countries. We visit each 
other's militaries. And from the U.S. perspective, we try to 
enhance that sort of transparency as a way to ensure, to reduce 
the potential for misunderstanding and miscalculation.
    We have also recently agreed to several confidence-building 
measures on rules of behavior in airspace and on the high seas, 
which we see as a very important aspect of our efforts to 
reduce risk. As our militaries operate in closer proximity to 
one another to a greater degree of regularity, we see that 
efforts of risk reduction are very important.
    In terms of managing Chinese perceptions, as somebody who 
has studied China for a long time, I find that task to be very 
complicated and very difficult. What we can be responsible for 
is to make sure that we are doing the right things, to make 
sure that we have the capabilities in the places that we need 
to make sure that we are building the capabilities of our 
allies and partners and make sure that we are able to defend 
ourselves, defend our allies, and defend our interests. And I 
believe we are.
    Mr. Byrne. Thank you.
    I yield back.
    Mr. Forbes. The gentleman yields back.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Thank you, Mr. Chairman.
    Throughout the opening statements and certainly throughout 
the witnesses' opening statements, there is a theme of the 
importance of recognizing global rules and norms and 
understanding the mechanisms by which to resolve disputes. So I 
think many of us in Congress have been concerned when we look 
at China's unilateral moves, whether in the East China Sea or 
in the South China Sea, which really go against international 
norms, unilateral moves, whether it is Scarborough Shoals, or, 
you know, declaring an ADIZ over the East China Sea, which 
really go outside the norms--so if we just think about the next 
steps and what is in our toolbox as the United States to help 
deescalate tensions, I think it is reasonable to go ahead and--
we should certainly--I do wish we were a part of UNCLOS. We are 
not. But we are going through the process of recognizing 
international norms and international mechanisms by which to 
resolve disputes, so a ruling will come out shortly.
    I think it behooves us to make sure, as an international 
community, when we see that ruling, we do everything we can to 
enforce that ruling. Now, what I would say is, you know, let's 
say that ruling is not the one China is looking for, and they 
choose to ignore that ruling. We look at, I think Ms. Willett, 
you talked about the tools that we have. We are already engaged 
diplomatically in the sense that we have gone to UNCLOS. I 
would consider that a diplomatic tool by which to resolve this 
dispute. We can continue to engage them diplomatically, but we 
have already used that tool. None of us is interested in a 
military or kinetic engagement. We certainly are posturing by 
having some of our assets in the region. And the importance of 
the South China Sea, the reason why these small reclaimed 
islands are so important is that is one of the most important 
trade routes in the world right now. It is of incredible 
economic importance to not only the United States but to our 
allies in the region. And the number of goods that move through 
that region are very important, so they are very strategic.
    We can try to use economic tools to get China back to the 
table, but the worry here is, you know, China increasingly is 
moving assets to that island, and the more assets they have, 
the harder it will be to move them off of those islands. And it 
is much easier for us to deal with this today than it will be a 
decade from now.
    So, Mr. Denmark, outside of that, what are our options?
    Mr. Denmark. Well, thank you, Congressman.
    I think you can understand why I would be reluctant to 
discuss military options to any degree of specificity in an 
open hearing. What I do feel comfortable saying in an open 
setting is that we remain very committed to continue to defend 
our allies, to defend critical principles that we see as 
necessary to the continued peace and stability of the region, 
and to continue to defend our national interests. In terms of 
what happens after a decision, I would refer you to the 
statement that I submitted in that we see the military role in 
this as being essential to deter conflict and ensure that 
diplomacy has space to succeed, and we are going to continue to 
play that role.
    Mr. Bera. And certainly there is no desire for a military 
option here. I mean, we want diplomacy, and we certainly want 
China to understand that it is in China's economic benefit to 
have open seaways and the free movement of goods and services. 
They obviously see that as well. So, from our perspective, 
let's hope adhering to international norms and international 
mechanisms by which to resolve dispute, that China will take 
that mechanism as a member of UNCLOS and adhere to whatever 
ruling we do see next week. Otherwise, I think we ought to come 
back into a joint committee here and really, you know, send a 
strong message that we have got to adhere to these 
international norms.
    With that, I yield back.
    Mr. Forbes. The gentleman yields back.
    The gentleman from Alabama, Mr. Brooks, is recognized for 5 
minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Looking at the South China Sea, there appear to be a number 
of nations that have significant economic and, perhaps, 
security interests. How would you rank those in terms of 
importance? Let's talk about it in terms of economics. Which 
countries use the South China Sea the most perhaps for fishing, 
food, commerce, oil, things of that nature?
    Ms. Willett. Thank you, Congressman.
    It is a big, complicated question. There are a number of 
claimants. They all have different, or not all, but they have 
varying claims. They have varying ways that they assess the 
values of those claims. I think----
    Mr. Brooks. I am not asking about claims. I am talking 
about who uses them.
    Ms. Willett. No, I understand. But the geographic scope of 
individual claims impacts how they assess the value of the 
resources and the importance of those spaces, which is all to 
say it is a complicated answer.
    Mr. Brooks. What is your judgment?
    Ms. Willett. From a U.S. perspective, what is most 
important and what is driving these disputes vary much from 
country to country; from our perspective, what is most 
important is whether or not they are going to pursue those 
claims in a way----
    Mr. Brooks. Mr. Denmark, I am not getting an answer. 
Perhaps you can share with me your insight on which countries 
have the greatest amount of economic interest in the South 
China Sea. It might be oil being shipped through the South 
China Sea that they are dependent on. It might be unfinished or 
finished products. It might be food in the form of fishing. Do 
you have a judgment as to which countries have the greatest 
economic interest in the South China Sea?
    Mr. Denmark. Well, Congressman, it is a very interesting 
question. I don't believe I have seen an academic analysis that 
tries to rank these. What I have seen, though, is that the 
complexities of international trade in this region means that 
it is not just the claimants that are affected, although 
obviously they have a critical interest in it, but countries 
outside of even the immediate area of the South China Sea, like 
Japan, like South Korea, like the United States, also have a 
critical interest----
    Mr. Brooks. Let's talk about it for a moment. South Korea, 
what is their interest in the South China Sea?
    Mr. Denmark. Well, obviously, I can't speak for them.
    Mr. Brooks. I understand you cannot speak for them. Do you 
have no judgment?
    Mr. Denmark. What I would say is my sense is that all 
countries in the region--I wouldn't want to identify one 
specifically. I would say all countries in the region----
    Mr. Brooks. I thought this was an easy question. South 
Korea, do they rely on their oil shipments from the Persian 
Gulf and from other areas to go through the South China Sea?
    Mr. Denmark. So what I was going to say is that South 
Korea, Japan, most of the countries of the region rely 
tremendously on international trade, much of which flows 
through the South China Sea.
    Mr. Brooks. Okay. Let's try to get to some specifics, and I 
have already lost about 70 percent of my time. South Korea, oil 
shipments through the South China Sea, do they have other 
commerce that is shipped to or from South Korea through the 
South China Sea?
    Mr. Denmark. Congressman, I am not trying to not answer 
your questions. As a representative of----
    Mr. Brooks. The answer is yes or no or you don't know.
    Mr. Denmark. What I will say, as a representative of the 
Department of Defense, I don't have those figures with me here.
    Mr. Brooks. Well, I am not asking for specific figures.
    Ms. Willett, are you familiar with whether or not South 
Korea ships or receives products through the South China Sea, 
other than oil? We have already established oil.
    Ms. Willett. All countries in East Asia receive and ship 
goods and services--oil, liquid and natural gas--through the 
South China Sea.
    Mr. Brooks. Is it fair to say that South Korea has a 
significant interest, then, in the South China Sea?
    Ms. Willett. Yes. I believe about 30 percent of the liquid 
natural gas that gets shipped to South Korea and Japan goes 
through the South China Sea. About 25 percent of the world's 
goods----
    Mr. Brooks. And Japan also has a significant economic 
interest?
    Ms. Willett. Yes, Congressman.
    Mr. Brooks. And the Philippines has a significant economic 
interest?
    Ms. Willett. Yes, sir.
    Mr. Brooks. Vietnam has a significant economic interest?
    Ms. Willett. Yes.
    Mr. Brooks. Taiwan has a significant economic interest?
    Ms. Willett. Yes, all countries in East Asia have a 
significant economic interest.
    Mr. Brooks. And would it be fair to say that their economic 
interest on a percentage of GDP is greater than that of the 
United States of America, economic interest?
    Ms. Willett. I would have to go back and look at the 
specifics because a great deal of this trade is also bound for 
the United States.
    Mr. Brooks. What can the United States of America do to 
encourage these other countries that have a greater reliance on 
shipping through the South China Sea to step up to the plate 
and absorb more of the defense costs associated with those 
shipping lanes?
    Ms. Willett. We work very closely with all of these 
countries on diplomatic, military, economic approaches to 
ensuring that the rules are followed in the South China Sea.
    Mr. Brooks. But they aren't stepping up to the plate like 
the United States of America is. My question is, what can we 
get them to do to step up to the plate to measures that are 
commensurate with their economic interests?
    Ms. Willett. We continue to engage with all of our partners 
in the region to ensure that we are all playing a part in 
ensuring that a rules-based order is protected in the South 
China Sea.
    Mr. Brooks. If the United States of America were to 
withdraw its military assets in the South China Sea, would that 
encourage these other countries to step up to the plate?
    Ms. Willett. I think that is a question for those other 
countries. I am sorry, sir.
    Mr. Brooks. All right. Thank you.
    Mr. Forbes. The gentleman's time is expired.
    The gentlelady from Guam is recognized for 5 minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman, Chairmen 
Forbes and Salmon, for holding this important and timely 
hearing.
    Two weeks ago, I had the pleasure of meeting with the Prime 
Minister of Timor-Leste to discuss a variety of bilateral 
issues. In particular, Secretary Willett, I would like to 
briefly note my concern regarding the outstanding maritime 
dispute between Australia and Timor-Leste. I believe the United 
States should use our diplomatic power and influence to bring 
about a swift resolution to this matter, and the lack of an 
agreement on this maritime dispute undermines our credibility 
when discussing the issue of the China-South China Sea maritime 
issues with the Chinese. I do know the Chinese raise this very 
often, so I hope that we can use some of our influence to 
encourage a swift resolution to the matter, and I think the 
political will exists in the region if we just need--of if we 
can just nudge this along. So I know Mr. Courtney has 
introduced a resolution to this matter, and I will also add my 
name to the chorus of people who believe the Senate should 
ratify UNCLOS.
    Now my first question is for, I guess, Secretary Denmark. I 
believe that an asymmetric advantage we have in countering 
Chinese influence in the South China Sea is the partnerships 
that we have in the region, and we should continue to cultivate 
them. Are programs such as the Maritime Security Initiative 
[MSI] a helpful tool for building partner capacity, and what 
areas can be improved? I am particularly concerned that we can 
find over $3 billion for the European Reassurance Initiative 
program, but we struggle to find $100 million for the Maritime 
Security Initiative. Now, you briefly touched on MSI in your 
testimony, Secretary Denmark, but I think this disparity sends 
the wrong message about our rebalance strategy, especially 
given your commentary on the need for building partner 
capacity. Do you agree? If you could just give it a brief 
answer. I have very little time.
    Mr. Denmark. We believe that MSI is very important. It is 
something that we have been working very actively to help train 
and equip our allies and partners. I agree with you that our 
allies and partners are a critical advantage to us in the 
region. And we are just in the beginning of this effort, and we 
are looking to continue to advance it.
    Ms. Bordallo. So you do agree then. Secretary Denmark, my 
final question is for you. On Guam, we are particularly 
concerned with the PLA [People's Liberation Army] Navy's 
increased presence in the South China Sea and the high number 
of unsafe aerial and maritime intercepts they are conducting. 
Could you elaborate on the steps that the Department is taking 
to, one, A, reduce Chinese intercepts and, B, create a roadmap 
for deescalating potential conflicts resulting from a botched 
Chinese reaction?
    Mr. Denmark. Sure. Yes, of course. As I have mentioned 
before, we have recently concluded several confidence-building 
measures with the Chinese, which are designed to reduce risk in 
terms of setting rules of behavior for interactions between our 
aircraft and our surface vessels based on existing 
international laws and norms. And we have seen an increase in 
the number of interactions between our forces in recent years, 
primarily because both sides are more active in the region 
militarily, but at the same time, we have seen a decrease in 
unsafe intercepts between our two sides, which I think 
demonstrates the effectiveness of these efforts.
    So we are going to continue to work with China to continue 
to advance these efforts to reduce risk, to enhance our ability 
to communicate with one another.
    Ms. Bordallo. Thank you very much.
    And I yield back, Mr. Chairman.
    Mr. Forbes. The gentlelady from Missouri, Ms. Hartzler, is 
recognized for 5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you.
    I was just wondering, has China adopted the U.N. Convention 
on the Law of the Sea?
    Ms. Willett. Yes, Congresswoman. They were integral in the 
drafting of the Convention on the Law of the Sea and have 
ratified it.
    Mrs. Hartzler. Ratified it. Okay. So they should abide by 
that, no question, obviously. Has the International Tribunal 
for the Law of the Sea ever ruled for a shared claim between 
countries? Could that be something potentially they would do 
next week?
    Ms. Willett. The tribunal in this instance won't rule on 
the underlying question of sovereignty over the individual land 
features. What it will do is potentially clarify what maritime 
entitlement those features are entitled to, among other issues. 
I would have to go back and look at the history of previous 
tribunals and get back to you on your question. But at the 
moment, the issue at question isn't who owns the land feature, 
but what maritime space is generated from a land feature. Is it 
a territorial sea or an exclusive economic zone?
    Mrs. Hartzler. Okay. Very good. How avoidable have recent 
near misses between U.S. and Chinese air- and seacraft been, 
and do you believe these incidents indicate that we are likely 
to see additional tense military encounters?
    Mr. Denmark. Congresswoman, as I mentioned, we have 
actually seen, the number of interactions between our aircraft 
and vessels in international places have increased in recent 
months and years. We have seen a decrease in the number of 
unsafe interactions between our two sides, as a result, I 
believe, of the risk reduction efforts that we have conducted. 
But as our forces continue to operate in relatively close 
proximity to one another, it is an issue that we are going to 
continue to be focused on, and these efforts at risk reduction 
are something that we are going to continue to pursue with the 
PLA.
    Mrs. Hartzler. So, back to the claim, a lot of my 
colleagues have advocated that the Senate adopt UNCLOS, and how 
would you respond to the concerns that I have heard that it 
would jeopardize American sovereignty by subjugating some of 
our rights to the U.N. and also perhaps jeopardize our fishing 
industry and the ability to fish certain areas? How would you 
respond to those concerns?
    Ms. Willett. It is our view, the Obama administration and 
the previous administrations, that the legal framework offered 
by the Convention on the Law of the Sea protects U.S. maritime 
interests and protects our rights around the world. On the 
specifics of what our accession and a ratification of the 
treaty might look like, I wouldn't want to speculate. That is 
something, I think, that would be part of the Senate 
deliberations.
    Mrs. Hartzler. Would you like to add anything?
    Mr. Denmark. If I could just add, from a DOD perspective, 
our military forces, even though we have not ratified UNCLOS, 
our military forces do operate in accordance with its 
guidelines, and we are very meticulous to make sure that all of 
our operations are conducted within the bounds of international 
law.
    Mrs. Hartzler. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Forbes. The gentlelady from Florida, Ms. Graham, is 
recognized for a little less than 5 minutes.
    Ms. Graham. I won't even take that long, Mr. Chairman. I 
appreciate it. Both of the chairmen, thank you for this 
opportunity.
    Ms. Willett, you mentioned that the United States will be 
looking at China's actions following conclusion of arbitration. 
Aside from the obvious--and I will say it has surprised me 
somewhat this hearing--and I have been here from the 
beginning--because it seems like the witnesses, that you all 
are somewhat hesitant, and I am assuming because of the 
sensitivity of the subject we are discussing, so I don't know 
if this would be maybe better addressed in a classified, Mr. 
Chairman. But aside from the obvious, what actions will you all 
be looking at from China's perspective that would signal 
noncompliance?
    Ms. Willett. Thank you, Congresswoman.
    I think the hesitance comes in part from the fact that it 
is a complicated legal question that has been put before the 
tribunal, and we do not have a ruling yet from the body that we 
could evaluate or even assess, you know, what noncompliance 
might look like. Thus far, our efforts have been focused on 
engaging intensively with China, with the other claimants, with 
the other parties in the region, to ensure that, following the 
ruling, everyone behaves with restraint, everyone is looking 
for ways to use the tribunal decision as a jumping-off point to 
restart diplomatic discussions about a common way forward that 
avoids conflict but looks for commonalities that can be built 
on so that in these disputed spaces, we can reduce the risk of 
misunderstanding and find a way for all of the parties involved 
to benefit and to behave in a manner that is consistent with 
international law and that isn't in violation of whatever the 
ruling is. But until we see the ruling, it is difficult to 
speculate on just what its implications are.
    Ms. Graham. And I think that is a fair comment. However, I 
will segue to something Mr. Denmark said. I certainly hope--and 
I will end with this--that if, in fact, there is a failure to 
live up to what our expectations are following the decision, 
unknowing what the decision is at this point, but I think we 
can all extrapolate out what would be a violation, that we do 
have--and you said, Mr. Denmark, that we are making sure we 
have the capabilities where we need them, and I wrote that 
down, make sure we have the capabilities where we need them. I 
think that is a key statement because, clearly, this is an area 
in the world where there are a lot of potential international 
implications if, in fact, they do not fulfill their 
obligations, being China.
    I will end with that. I don't really think there is a need 
to have a follow-up response, and I appreciate you all being 
here. Thank you very much.
    Mr. Forbes. We want to thank you both for being here. I 
told you at the beginning that we would allow you time to have 
any final comments. Unfortunately, these votes are called, so 
what I am going to allow you to do if you would like is to 
submit anything for the record to clarify any statement you 
have made or to put anything else in there that you feel we 
didn't cover that you thought was important. Is that okay with 
both the ranking members and with the chairman?
    With that, the other members have said that they do not 
need to return to ask their questions, so we are going to let 
you guys go. Thank you so much for being here.
    With that, we are adjourned.
    [Whereupon, at 4:59 p.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                              July 7, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              July 7, 2016

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              July 7, 2016

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. SHERMAN

    Ms. Willett. We remain committed to preserving Taiwan's democracy 
and ensuring the freedom of the people on Taiwan from coercion, 
threats, and intimidation. In accordance with the Taiwan Relations Act, 
the United States would consider any effort to determine the future of 
Taiwan by other than peaceful means, including by boycotts and 
embargoes, a threat to the peace and security of the Western Pacific 
area and of grave concern to the United States. [See page 17.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              July 7, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Under the terms of the 1951 Mutual Defense Treaty 
between the United States and the Philippines, each party is bound to 
respond to attacks on the ``armed forces, public vessels or aircraft'' 
of the other party, as well as ``island territories under its 
jurisdiction.'' Do the terms of this alliance cover Philippine forces 
in the disputed areas of the South China Sea? Do they cover the 
Scarborough Shoal?
    Ms. Willett. President Obama has been clear that we will stand by 
our commitments to the Philippines, as we do any mutual defense treaty 
ally. The long-standing, ironclad alliance between the Philippines and 
the United States has contributed to peace, stability, and prosperity 
in the Asia-Pacific region for more than 70 years. We do not comment on 
specific hypotheticals. We believe the language in the Mutual Defense 
Treaty is clear.
    Mr. Forbes. China has claimed that the outposts it is constructing 
in the Spratlys are for civilian purposes only, and that China will not 
``militarize'' the islands. In the view of the United States 
government, what would count as ``militarization?''
    Ms. Willett. The United States opposes efforts by any claimant to 
use force or threat of force to advance its territorial or maritime 
claims. We have consistently voiced support for the peaceful resolution 
of disputes in accordance with international norms. We consistently 
call on claimants to cease further land reclamation, construction of 
new facilities, and militarization of their outposts in the South China 
Sea. We would consider the introduction and rotation of military 
assets, including but not necessarily limited to offensive weapons 
systems and combat aircraft, on occupied outposts as militarization.
    Mr. Forbes. As to China's maritime claims in the South China Seas, 
has the State Department or the Department of Defense performed an 
analysis, either officially or unofficially, as to the validity of 
China's territorial claims and reclamation activities? If so, can the 
administration provide such analysis to our committees?
    Ms. Willett. The Department conducted an analysis of China's 
maritime claims in the South China Sea in volume no. 143 of its 
longstanding publication Limits in the Seas, which was released 
December 2014. It is currently available on the Department of State 
website. The United States does not take a position on competing 
sovereignty claims over land territory in the South China Sea.
    Mr. Forbes. According to press reports, China has declared that it 
will be holding a week of naval exercises on the eve of the court's 
ruling, and has designated approximately 40,000 square miles of the 
South China Sea--an area roughly the size of Kentucky--as a no-go zone 
for foreign shipping. Are these reports accurate? How do you interpret 
China's actions?
    Mr. Denmark. The People's Liberation Army continues to conduct 
routine military operations--including military exercises--in the South 
China Sea. We were aware of China's naval exercise in the South China 
Sea that occurred during the timeframe that the arbitral tribunal 
announced its ruling. We recognize the right of any State to conduct 
exercises in accordance with the established international laws and 
norms. We understand this particular exercise was part of China's 
annual naval training plan and would refer you to the Chinese 
government for further information.
    U.S. forces operate in the Asia-Pacific on a regular basis, 
including in the South China Sea, and have done so for decades. All 
operations are conducted in accordance with international law. The 
establishment of a Warning Area in international waters for the conduct 
of an exercise does not give any country the right to prohibit the 
entry of ships or aircraft into that area. The United States and China 
agreed to these international standards as part of the Confidence 
Building Measures signed in 2014 and will discuss lessons learned from 
this event during our relevant diplomatic dialogues.
    Mr. Forbes. In 2013, China declared an Air Defense Identification 
Zone or ADIZ over the East China Sea. Some observers have suggested 
that China may intend to declare a similar zone over the South China 
Sea, and enforce it from its artificial island bases. How would the 
United States respond to the declaration of such an ADIZ?
    Mr. Denmark. When China announced its 2013 East China Sea (ECS) Air 
Defense Identification Zone (ADIZ), the United States made it clear 
that a unilateral and uncoordinated ADIZ over politically sensitive 
areas was provocative and raised tensions. This declaration has not 
affected U.S. military operations in any way.
    A Chinese declaration of an ADIZ over disputed territories and 
water space in the SCS would not grant it any new authority or 
strengthen its claims over the area. In fact, such a declaration would 
only serve to increase tensions with China's neighbors. Just as in the 
East China Sea, an ADIZ in the South China Sea would not change how the 
United States conducts military operations in the region. The United 
States will continue to fly, sail, and operate in accordance with 
international law, as U.S. forces do all around the world. U.S. forces 
will continue to be present and active in and around the SCS on a 
regular basis.
    Mr. Forbes. Some observers have suggested that rather than trying 
to achieve legal jurisdiction over the South China Sea, Beijing may 
simply strive for de facto control, and use its paramilitary forces, 
fishing boats, and ``maritime militia'' to achieve dominance in the 
region without crossing the threshold into outright conflict. How 
should the United States respond to and counter that kind of ``gray 
zone'' aggression against our partners? Do we have a strategy to do so, 
or the forces, tactics, and capabilities required?
    Mr. Denmark. To address security concerns in the region, including 
those referred to as ``gray zone'' aggression, the Department of 
Defense has executed a four-part strategy to achieve our broader 
national objectives:
    <bullet>  First, we have strengthened our own military capacity and 
presence in the region through efforts such as the Enhanced Defense 
Cooperation Agreement (EDCA) with the Philippines.
    <bullet>  Second, we have enhanced the tempo of our military 
operations in the region increasing our visible presence in the region. 
U.S. military forces are present and active in and around the Western 
Pacific on a daily basis. U.S. ships and aircraft operate routinely 
throughout the Western Pacific--including the South China Sea, East 
China Sea and Philippine Sea--and have for the last 70 years. In the 
past year, U.S. aircraft carriers, Ronald Reagan and John C. Stennis 
Strike groups, conducted routine operations in the international waters 
of the South China Sea and the Philippine Sea. The Stennis operated in 
the South China Sea for three months before joining the Reagan in the 
Philippine Sea for combined training and exercises. These routine 
operations were conducted in accordance with international law and 
demonstrated continued U.S. freedom of navigation in international 
waters in accordance with international norms, standards, rules and 
laws.
    <bullet>  Third, we continue to network our security relationships 
by enhancing our engagements and cooperation with and among our allies 
and partners, and thorough building partner capacity efforts such as 
the Southeast Asia Maritime Security Initiative.
    <bullet>  Finally, we have sought to leverage our military 
diplomacy with partners, including China, to reduce the possibility of 
misunderstanding and miscalculation between our forces.
    These efforts, combined with the strategic investments we are 
making at home, will ensure that we are ready to address all 
contingencies in the region.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. China has stated that it neither accepts nor recognizes 
the Permanent Court of Arbitration's ruling against its claims in the 
South China Sea. This has led to media speculation as to potential 
Chinese provocations and U.S. military responses. However, given the 
mutual goals of resource extraction and fishing among claimants to the 
contested waters, resolving these conflicting claims is primarily a 
diplomatic question. How can the State Department play a constructive 
role in this process?
    Ms. Willett. The Administration employs a comprehensive and 
multifaceted approach to the South China Sea that includes intense 
bilateral and multilateral diplomacy, a consistent military presence 
and operations, defense engagement and partner capacity building, and 
sustained economic engagement. As a non-claimant, one of our primary 
interests is in helping shape a rules-based strategic environment so 
that disputes are settled peacefully and in accordance with 
international law. Our consistent and steady presence in the South 
China Sea plays an important role in deterring any claimant from 
employing the use or threat of force to assert their claims, leaving 
open the door for constructive diplomatic or other peaceful processes 
among claimants. We are strengthening our defensive presence in the 
South China Sea. As part of a long term strategy, we are moving 60 
percent of our naval fleet to the Pacific and rotating more of our 
forces through friendly countries in the region. We are also 
strengthening maritime domain awareness and law enforcement 
capabilities in the region. This includes new security cooperation 
agreements with allies and partners in Southeast Asia and providing 
equipment and training to help partners better patrol offshore and 
ensure their ability to maintain an effective presence. On the 
diplomatic front, we are advocating for peaceful dispute resolution and 
compliance with international law. We continue to engage in intense, 
high-level diplomacy with all claimants, including advocating for them 
to take advantage of the July 12 Arbitral Tribunal's ruling to find a 
workable modus-vivendi in areas subject to dispute. President Obama, 
Secretary Kerry, and Secretary Carter continue to make our interests 
and concerns clear to all claimants in an open and frank manner. In 
addition, we have consistently called on all parties to negotiate a 
Code of Conduct in the South China Sea, which would build on the 
Declaration on the Conduct they negotiated in 2002.
    Mr. Larsen. What is the U.S. military's assessment of China's long-
term goals as a naval power in Asia and beyond? Are there any ways a 
more powerful Chinese navy is in the U.S. national interest?
    Mr. Denmark. China's Navy is shifting its mission from ``near sea'' 
defense to ``far seas'' protection, which was espoused as the Navy's 
objective in China's most recent Defense White Paper. China's maritime 
emphasis and attention to missions guarding its overseas interests has 
increasingly drawn the PLA beyond China's borders and its immediate 
periphery. The PLAN is increasingly conducting operational tasks 
outside the so-called ``first island chain'' with multi-mission, long-
range, sustainable naval platforms that have robust self-defense 
capabilities. Over the past 15 years, China's ambitious naval 
modernization program has produced a more technologically advanced and 
flexible force. The PLAN now possesses more than 300 surface ships, 
submarines, amphibious ships, and patrol craft. China is rapidly 
retiring legacy combatants in favor of larger, multi-mission ships 
equipped with advanced anti-ship, anti-air, and anti-submarine weapons 
and sensors.
    As China's capabilities improve, we consistently encourage China to 
be a constructive partner in the region and to contribute positively to 
regional stability. China's contributions to global and regional public 
goods--such as humanitarian assistance and disaster relief--would be in 
the interests of the entire Asia-Pacific, including the United States.
    Mr. Larsen. Does the U.S. military believe that China's building up 
of ``islands'' and installation of military facilities in the South 
China Sea are the result of PLAN pressure and influence on China's 
civilian leadership, or are these the result of a centrally-directed 
strategy from China's top civilian leadership?
    Mr. Denmark. I would refer you to Chinese authorities to address 
questions about China's internal policy coordination process.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SALMON
    Mr. Salmon. Since the hearing, the tribunal deciding the 
Philippines v. China arbitration has issued its ruling, largely 
invalidating China's claims in the South China Sea. China, predictably, 
has made clear that it refuses to recognize or abide by this ruling. As 
the tribunal lacks an enforcement mechanism, what will be the 
ramifications of China's noncompliance? Does this noncompliance stand 
to damage the credibility of international law? How can we hold them 
accountable?
    Mr. Denmark. As provided in the Law of the Sea Convention, the 
Arbitral Tribunal's decision in this case is legally binding on both 
the Philippines and China. China's stated non-compliance with the 
ruling does not negate the legitimacy of the ruling.
    Although the United Nations Permanent Court of Arbitration does not 
have a mechanism to enforce the ruling, this is common to all 
international maritime law. The expectation in this and other cases 
relating to international maritime law is that both parties will comply 
with their obligations and exercise restraint. We have encouraged China 
and all claimants to clarify their claims in accordance with 
international law as reflected in the Law of the Sea Convention, and to 
work together to creatively and peacefully manage and resolve their 
differences. The United States will continue to provide a credible 
presence in the region to create the diplomatic space for China and the 
Philippines to resolve their differences. Our military operations, 
though not intended to enforce the ruling, will continue to uphold 
freedom of navigation and overflight in the South China Sea, as we do 
around the world.
    Mr. Salmon. Our strategy towards the South China Sea has been 
limited to imposing reputational harm on China, rather than actually 
attempting to elicit a change in its behavior. Our freedom of 
navigation operations have shown that we will not recognize China's 
excessive claims, and our statements in support of international law 
show that China's noncompliance with the arbitral ruling is wrong; but 
this strategy hasn't stopped Chinese militarization of the area. Is 
imposing reputational harm really the best we can do? Other than 
upgrading the maritime security capabilities of our partners in the 
region, do we have any tools for inducing behavioral change in the 
South China Sea?
    Mr. Denmark. We are committed to defending our allies and 
protecting the rights, freedoms, and lawful uses of the sea and 
airspace guaranteed to all countries. The United States will continue 
to conduct routine and lawful operations in the South China Sea in 
order to protect the rights, freedoms, and lawful uses of the sea and 
airspace guaranteed to all countries.
    We have a multi-pronged strategy to defend and uphold these 
interests and principles and set the stage for change. First, the 
United States has strengthened our own military capacity and presence 
in Southeast Asia though such efforts as rotationally basing ships, 
aircraft and Marines in Singapore and the Philippines. Second we have 
enhanced the tempo of our military operations in the region which 
included a persistent and scalable Command and Control Detachment in 
the Philippines, dual carrier operations in the Philippine Sea and a 
deployed rotational air component to the Philippines. Third, we have 
enhanced our regional security network by building partner capacity 
through the Southeast Asia Maritime Security Initiative, training 
regional forces, and conducting multilateral exercises such as 
BALIKATAN and RIMPAC. Finally we have leveraged military diplomacy to 
reduce risk with China utilizing Confidence Building Measures, high 
level dialogues, and existing structures such as Western Pacific Naval 
Symposium (WPNS) and ASEAN Defense Ministers Meeting (ADMM) Plus.
    In combination with the broader United States Government diplomatic 
engagement strategy these lines of effort have provided an increased 
set of tools for creating more favorable conditions for claimants to 
lower tensions and take steps to peacefully resolve disputes, including 
through peaceful dispute mechanisms such as arbitration.
    Mr. Salmon. ASEAN is the multilateral body most directly involved 
in the South China Sea disputes, but has had trouble making forward 
progress due to its consensus-based procedures. Some members of ASEAN 
continue to ask for U.S. assistance to secure the region. The Maritime 
Security Initiative was recently implemented to assist coastal states' 
abilities to address challenges in the area, including China's 
belligerence. What more can we do to work with our friends in ASEAN to 
move toward a secure region? How can we facilitate progress within the 
framework of ASEAN? Will the disputes cause fractures in the ASEAN 
community and what can we do to prevent it?
    Mr. Denmark. The Association of Southeast Asian Nations (ASEAN) is 
critical to the regional security architecture. The United States 
supports ASEAN centrality, and has focused on enhancing ASEAN through 
engagement, building partner capacity, training and exercises. This is 
why DOD has invested in ASEAN thorough multiple high-level dialogues 
such as the East Asia Summit and ASEAN Defense Ministers Meeting-Plus 
(ADMM-Plus). In addition to the dialogue, DOD has taken action to back 
up the principles we espouse. We are deepening multilateral regional 
security architecture through the ADMM-Plus and its Experts Working 
Groups, through which we are pursuing practical defense cooperation, 
initiatives, and exercises to address challenges that affect us all 
more effectively.
    Additionally, we have begun implementing the Southeast Asia 
Maritime Security Initiative, which Congress authorized in Section 1263 
of the FY16 NDAA. This is a comprehensive, multi-year effort that will 
reinforce our partners' and allies' maritime security efforts and 
address shared challenges. In the Initiative's first year, we're 
helping the Philippines enhance its National Coast Watch Center and 
outfitting a previously provided excess high endurance cutter with 
reconnaissance and maritime sensors, advising Vietnam on maritime 
patrol capabilities, providing Indonesia and Malaysia with 
communications equipment and training, and advising Thailand on fusion 
center operations.
    In addition to building partner capacity, we also conduct several 
bilateral and multilateral exercises. Examples include BALIKATAN with 
the Philippines, and the Rim of the Pacific (RIMPAC) Exercise includes 
27 nations focused on building maritime cooperation, security, and 
disaster response capacity. Additionally, PACIFIC PATHWAYS builds 
partner capability and interoperability with Thailand, South Korea, the 
Philippines, Indonesia, and Malaysia.
    In recent years, we have also seen Asia-Pacific countries come 
together to strengthen bilateral and trilateral ties. For example, 
Malaysia, the Philippines, and Indonesia, members of ASEAN, are coming 
together to counter maritime threats in coastal waters. And Indonesia 
has proposed trilateral joint maritime patrols with Malaysia and the 
Philippines, including counter-piracy patrols in the Sulu Sea. The 
United States welcomes and encourages these burgeoning partnerships 
among like-minded partners who share our vision of a principled 
regional order. By networking security together, we believe we 
strengthen the ability of ASEAN and all countries to enjoy stability 
and prosperity in a dynamic region.
    Mr. Salmon. Secretary Kerry recently warned that the United States 
would treat a Chinese ADIZ over the South China Sea as a ``provocative 
and destabilizing act.'' Tensions were high when China declared an ADIZ 
in the East China Sea in 2013, and much of that strain has shifted 
south. Given China's militarization of the South China Sea, does China 
now have the infrastructure in place to declare an ADIZ? Would the 
United States and the international community comply with a Chinese 
South China Sea ADIZ? How would it differ with the Chinese ADIZ in the 
East China Sea?
    Mr. Denmark. When China announced its 2013 ECS ADIZ, we made it 
clear that declaring a unilateral and uncoordinated ADIZ in a 
politically sensitive area was provocative and raised regional 
tensions.
    A unilateral and uncoordinated declaration of an ADIZ over disputed 
territories and water space in the SCS would not grant China any new 
authority over the region and only serves to increase tensions with 
China's neighbors. Just as in the East China Sea, an SCS ADIZ would not 
change how the United States conducts military operations in the 
region. The United States will continue to fly, sail, and operate in 
accordance with international law, as U.S. forces do all around the 
world. U.S. forces will continue to be present and active in and around 
the SCS on a regular basis.
    Mr. Salmon. The Philippines v. China arbitral tribunal's award has 
defined the Scarborough Shoal as a rock under the Law of the Sea 
treaty. What implications does this definition have for the U.S.-
Philippines alliance? What does this settling of the Shoal's status 
mean for the U.S.-Philippines Mutual Defense Treaty?
    Mr. Denmark. As President Obama and Secretary Carter have stated, 
our commitment to the Philippines is ironclad. This alliance has been 
nurtured over decades; tested in crisis; and is built on shared 
interest, values, and sacrifice. Our alliance relationships form the 
bedrock of our role in the Asia-Pacific, and accordingly, the stability 
and security that have helped so many in the Asia-Pacific to rise and 
prosper.
    The United States takes no position on competing sovereignty claims 
to features in the South China Sea and encourages all parties to seek a 
peaceful diplomatic resolution to their disputes.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOWENTHAL
    Mr. Lowenthal. Ms. Willett, last month the Foreign Ministers of 
ASEAN released a strong statement of concern on Chinese activities in 
the South China Sea. In what I think is a pretty extraordinary move, 
however, the ministers retracted the statement after coming under heavy 
pressure from China.
    What can the United States do to build greater consensus among the 
nations of Southeast Asia? Will ASEAN ever be able to speak with one 
voice on the Sea?
    Ms. Willett. The United States values ASEAN's role at the center of 
the region's multilateral security architecture, and believes that 
ASEAN centrality plays an important role in maintaining regional 
stability. We continue to invest in ASEAN institutions, including a 
commitment toward helping ASEAN further implement its own goals to 
become a more integrated and effective economic, political, and socio-
cultural community. We also continue to diplomatically engage all ten 
members at all levels, using these opportunities to impress upon them 
the importance of ASEAN speaking out in favor of international law, 
rules, and standards.
    Our relationships throughout Southeast Asia are strengthening, 
support for a common vision of a rules-based regional order is 
deepening, and demand for us to play a more active role in upholding 
regional stability is increasing.
    If thwarting ASEAN consensus to prevent a specific mention on the 
July 12 Arbitral Tribunal ruling was meant as a means to draw attention 
away from the decision and its legally binding effect on the 
Philippines and China, those actions achieved the opposite result. In 
fact, the region and international community are increasingly vocal 
about calling for compliance with international law and against 
activities that raise tensions and complicate the situation. Last 
month, ASEAN foreign ministers jointly called for disputes to be 
resolved peacefully, with full respect for diplomatic and legal 
processes. The United States and ASEAN Member States also stressed the 
importance of international law, including freedom of navigation and 
overflight.
    Mr. Lowenthal. In the case that the UNCLOS tribunal rules in favor 
of the Philippines and China completely ignores the ruling, as signs 
have indicated, what would this mean for China's general commitment to 
international law?
    Ms. Willett. The tribunal's ruling will be final and binding on 
both China and the Philippines under the Law of the Sea Convention, an 
international treaty that both countries helped negotiate and willingly 
joined. China's public rejection of the tribunal's decision would 
certainly raise questions about China's commitment to honoring its 
international obligations and commitments. But we're especially 
watching China's actions, and whether it acts in a manner consistent 
with the arbitral decision or acts in violation of its treaty 
obligations. Actions by China that violate the tribunal's decision or 
otherwise escalate tensions would send a worrying signal to the 
international community about China's attitude to international rules 
and norms.
    As a result, we are working, together with allies, to convince 
China to act in accordance with international law--not just in the 
South China Sea, but on other issues as well. To this end, we engage 
directly with the Chinese government to underscore the importance of 
respecting and upholding the rules-based international order and to 
highlight the risks and costs of undermining it. We also engage with 
other countries in the region, as well as the broader international 
community, to build support for common principles and set shared 
expectations for Beijing.
    Mr. Lowenthal. Should we be worried about China's potential 
rejection of an unfavorable tribunal ruling as setting a precedent to 
ignore international legal commitments in the future?
    Ms. Willett. The tribunal's ruling will be final and binding on 
both China and the Philippines under the Law of the Sea Convention, an 
international treaty that both countries helped negotiate and willingly 
joined. China's public rejection of the tribunal's decision would 
certainly raise questions about China's commitment to honoring its 
international obligations and commitments. But we're especially 
watching China's actions, and whether it acts in a manner consistent 
with the arbitral decision or acts in violation of its treaty 
obligations. Actions by China that violate the tribunal's decision or 
otherwise escalate tensions would send a worrying signal to the 
international community about China's attitude to international rules 
and norms.
    As a result, we are working, together with allies, to convince 
China to act in accordance with international law--not just in the 
South China Sea, but on other issues as well. To this end, we engage 
directly with the Chinese government to underscore the importance of 
respecting and upholding the rules-based international order and to 
highlight the risks and costs of undermining it. We also engage with 
other countries in the region, as well as the broader international 
community, to build support for common principles and set shared 
expectations for Beijing.
    We have made real progress. We have demonstrably strengthened our 
relationships throughout the Asia Pacific region, deepened regional 
support for a common vision of a rules-based regional order, and seen 
an increase in regional demand for us to play an active role in 
upholding regional stability. The region and international community 
are increasingly vocal against activities that raise tensions. Instead, 
they are in favor of respect for international law and restraint among 
all claimants, including China.
    Mr. Lowenthal. What other avenues are available to the United 
States or the international community to pressure China to respect the 
tribunal's decision?
    Ms. Willett. As a non-claimant, our vital interest lies in helping 
shape a regional environment in which disputes can be settled 
peacefully and in accordance with international law. To this end, the 
Administration is pursuing a comprehensive and multifaceted approach to 
the South China Sea.
    Our consistent and steady presence in the South China Sea plays an 
important role in deterring claimants from employing the use of force 
to assert their claims, leaving open the door for constructive 
diplomatic or other peaceful processes among claimants. We are 
strengthening our security posture in the South China Sea. As part of a 
long term strategy, we are moving 60 percent of our naval fleet to the 
Pacific and rotating more of our forces through friendly countries in 
the region.
    We are also strengthening maritime domain awareness and law 
enforcement capabilities in the region. This includes new security 
cooperation arrangements with allies and partners in Southeast Asia and 
providing equipment and training to help partners better patrol the 
maritime domain and ensure their ability to maintain an effective 
presence.
    On the diplomatic front, we are advocating for peaceful dispute 
resolution and compliance with international law. We are engaging in 
intense, high-level diplomacy with all claimants, including advocating 
for them to take advantage of the July 12 Arbitral Tribunal's ruling to 
advance a modus vivendi in disputed areas. President Obama, Secretary 
Kerry, and Secretary Carter make our interests and concerns clear to 
all claimants in an open and frank manner.
    Mr. Lowenthal. Mr. Denmark, the United States has conducted several 
``freedom of navigation'' operations in the South China Sea to ensure 
that these essential waterways continue to remain open for all. 
Australia has also conducted freedom of navigation flights in the sea, 
can we expect our other allies in the region, like the Philippines or 
Singapore, to also contribute to these efforts?
    Mr. Denmark. Our Freedom of Navigation Operations (FONOPs) 
demonstrate the commitment of the United States to operate wherever 
permitted under international law, and to uphold the rights, freedoms, 
and lawful uses of the sea that are enjoyed by all nations in 
accordance with international law. They are designed to support and 
sustain the principled rules-based order in the Asia-Pacific. The 
United States will continue to conduct FONOPs around the world, 
including in the South China Sea.
    Questions on the specific response by individual countries must be 
answered by their respective governments.
    Mr. Lowenthal. Should we be encouraging our allies to conduct these 
exercises?
    Mr. Denmark. The United States welcomes all states to exercise 
their rights, freedoms, and lawful uses of the sea and airspace.
    Mr. Lowenthal. With so many different actors and militaries 
operating in the region, how can we be sure that there are open lines 
of communication and misunderstandings do not lead to violent 
confrontations?
    Mr. Denmark. We actively seek to reduce the risk of 
miscommunication and miscalculation at sea through a variety of 
mechanisms. These include our bilateral and multilateral defense 
dialogues, such as ASEAN Defense Ministers Meeting (ADMM) Plus, 
combined exercises such as Rim of the Pacific 2016, and participation 
in multilateral organizations such as the Western Pacific Naval 
Symposium (WPNS).
    In 2014, the member states of WPNS agreed to the Code of Unplanned 
Encounters at Sea (CUES), which standardizes basic communications 
between naval ships and aircraft in an effort to minimize the risk of 
miscommunication and miscalculation. This, and other efforts such as 
our bilateral Confidence Building Measures with China, provide the 
practical mechanisms to mitigate risk of unintended incidents.
    We also maintain a robust military-to-military relationship with 
China that seeks to reduce risk and enhance mutual understanding. As 
part of this effort, U.S. military leaders regularly engage their 
Chinese counterparts and maintain regular channels of communications 
with them through the use of the Defense Telephone Link.

                                  [all]
</pre></body></html>
